APPENDIX TABLE OF CONTENTS
Judgment of the Federal Circuit Court of Appeals
(July 31, 2019) .................................................... 1a
USPTO Patent Trial and Appeal Board
Final Written Decision
35 U.S.C. § 318(a) and 37 C.F.R. § 42.73
(September 5, 2017)............................................ 3a

App.1a
JUDGMENT OF THE
FEDERAL CIRCUIT COURT OF APPEALS
(JULY 31, 2019)
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
________________________
CHESTNUT HILL SOUND INC.,

Appellant,
v.
APPLE INC.,

Appellee,
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL PROPERTY
AND DIRECTOR OF THE UNITED STATES
PATENT AND TRADEMARK OFFICE,

Intervenor.

________________________
2018-1163

Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2016-00794.
Before: PROST, Chief Judge, NEWMAN and
BRYSON, Circuit Judges.

App.2a
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, NEWMAN
and BRYSON, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
Date: July 31, 2019

App.3a
USPTO PATENT TRIAL AND APPEAL BOARD
FINAL WRITTEN DECISION
35 U.S.C. § 318(A) AND 37 C.F.R. § 42.73
(SEPTEMBER 5, 2017)
UNITED STATES PATENT AND
TRADEMARK OFFICE
________________________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
________________________
APPLE INC.,

Petitioner,
v.
CHESTNUT HILL SOUND INC.,

Patent Owner.

________________________
Case IPR2016-00794
Patent 8,090,309 B2

Before: Rama G. ELLURU, David C. MCKONE, and
John F. HORVATH, Administrative Patent Judges.

App.4a
MCKONE, Administrative Patent Judge.
I. INTRODUCTION
A.

Background

Apple Inc. (“Petitioner”) filed a Petition (Paper 2,
“Pet.”) to institute an inter partes review of claims 1–
14 of U.S. Patent No. 8,090,309 B2 (Ex. 1001, “the
’309 patent”). Chestnut Hill Sound Inc. (“Patent
Owner”) filed a Preliminary Response (Paper 8, “Prelim.
Resp.”).
Pursuant to 35 U.S.C. § 314, in our Institution
Decision (Paper 9, “Dec.”), we instituted this proceeding
as to claims 1–14.
Patent Owner filed a Patent Owner’s Response
(Paper 16, “PO Resp.”), and Petitioner filed a Reply
to the Patent Owner’s Response (Paper 20, “Reply”).
Petitioner relies on the testimony of M. Ray
Mercer, Ph.D. (Ex. 1003, “Mercer Decl.”). Patent Owner
does not submit declaration testimony.
An oral argument was held on April 20, 2017
(Paper 31, “Tr.”).
We have jurisdiction under 35 U.S.C. § 6. This
Decision is a final written decision under 35 U.S.C.
§ 318(a) as to the patentability of claims 1– 14. Based
on the record before us, Petitioner has demonstrated,
by a preponderance of the evidence, that claims 1–14
of the ’309 patent are unpatentable.
B.

Related Matters

The ’309 patent is the subject of Chestnut Hill
Sound, Inc. v. Apple Inc., Civil Action No. 1:15-cv-00261

App.5a
(D. Del). Pet. 1; Paper 5, 1. In Apple, Inc. v. Chestnut
Hill Sound Inc., Case IPR2015-01463 (PTAB) (“the
1463 IPR”), Petitioner challenged claims 1–14 of the
’309 patent, and we denied institution.
C.

The Instituted Ground

We instituted inter partes review of claims 1–14,
under 35 U.S.C.§ 103(a), over AbiEzzi (Ex. 1005, US
2005/0132405 A1, June 16, 2005) and Baumgartner
(Ex. 1007, 8,156,528 B2, Apr. 10, 2012). Dec. 23.
D.The ’309 Patent
The ’309 patent describes an audio entertainment
system. Figures 1 and 2B, reproduced below, illustrate
an example:

FIG. 1
Figure 1 is high-level block diagram of an audio entertainment system. Ex. 1001, 6:33–34.

App.6a

FIG. 2B
Figure 2B is a pictorial view of the entertainment
system. Id. at 6:37–39.
Entertainment system 100 includes base unit
(table unit) 102 and control sub-assembly 104. Id. at
3:21–32, 7:34–37. Detachable device 118 is preferably
a digitally controlled device (e.g., an iPod) that
supplies an audio signal, via interface subassembly
116, to audio amplifier 106. Id. at 7:47–57. Control
sub-assembly 104 may include a detachable control
unit 104A and an interface 104B, in the base unit. Id.
at 7:44–46. In a first mode (“docked mode”), control
unit 104A is electrically connected to audio amplifier
106 and signal source electronics sub-assembly 116
via a set of connectors or terminals 142A, 142B, and
its wireless transceiver is disabled. Id. at 8:58–62. In
a second mode (“undocked mode”), control 104A is
separated from the base unit and the connection
between electrical connectors 142A, 142B is broken.
Id. at 9:2–5.

App.7a
The ’309 patent specification explains that “the
system may control a remote device (personal computer,
etc.) which can then act as a server of music and
other files to the base unit . . . or as a streaming
audio source.” Id. at 8:11–15. In addition, the remote
device “may serve up content” from an attached portable
music player (e.g., such as an iPod device). Id. at
8:25– 26. The specification further explains that “the
remote device and/or its music source may be controlled
via a local control unit such as a detachable control
unit 104A.” Id. at 8:27–29. “Thus, for example, a user
may be in one room of a house with control unit 104A
and control the delivery of music from a source in
that room, in another room (directly via wireless
operation or via a network), or even from a source
external to the house.” Id. at 8:29–33. To facilitate
operation of the control unit and the selection of
music to be played, the control unit may operate upon
metadata that serves to identify music selections by
their source. Id. at 8:33–37.
Claims 1 and 9 are the only independent claims.
Claim 1, reproduced below, is illustrative of the claimed
subject matter:
1. A method of using a media device
operable in first and second modes, the first
mode comprising operation as a system for
accessing a media source co-housed with or
directly connected to said media device, the
source configured to stream media files or
media streams for output by said media
device, and the second mode comprising
operation of the media device as a remote
controller system for controlling over a
network a media source remote from the

App.8a
media device, comprising:
operating the media device in the first mode,
wherein when operated in the first mode,
the media device performs operations of
displaying user-selectable media metadata
on a display of the media device, at
least one media file or stream being
associated with each displayed media
metadata and being available from the
media source for playing by said media
device,
receiving from a user a selection of media
metadata from among the displayed
media metadata, and indicating that said
media device should play a media file
or media stream associated with the
selected media metadata, and
outputting the selected media file or media
stream; and
operating the media device in a second mode,
wherein when operated in the second mode,
the media device performs operations of
connecting the media device with the media
source, via a network interface,
transmitting a request, using the network
interface, for media metadata from the
media device to the media source,
receiving at the media device, using the network interface, media metadata from the
remote media source, the media metadata indicating at least one media file

App.9a
or media stream available from the
media source,
displaying at least one received media metadata on a media device display,
generating a signal in response to a user
selection of at least one said displayed
media metadata, and the media device
sending a corresponding signal from the
network interface to the media source,
wherein the corresponding signal includes at least one media file or media
stream metadata identifying at least
one media file or media stream available
from the media source that, in turn,
responds to the corresponding signal by
accessing the identified media file or
media stream and once accessed, and
sending the identified media file or media
stream to a media output device separate
from the media device.
II. ANALYSIS
A.

Claim Construction

We interpret claims of an unexpired patent using
the broadest reasonable construction in light of the
specification of the patent in which they appear. See
37 C.F.R. § 42.100(b); Cuozzo Speed Techs., LLC v.
Lee, 136 S. Ct. 2131, 2144–45 (2016). In applying a
broadest reasonable construction, claim terms generally
are given their ordinary and customary meaning, as
would be understood by one of ordinary skill in the
art in the context of the entire disclosure. See In re

App.10a

Translogic Tech., Inc., 504 F.3d 1249, 1257 (Fed. Cir.

2007).

In the Institution Decision, we concluded that,
for purposes of that decision, we did not need to
construe any claim terms expressly. Dec. 7. Following
our decision, neither party proposes an express
construction for any claim term. On the complete record,
we conclude that no term requires express construction.
See Vivid Techs., Inc. v. Am. Sci. & Eng’g, Inc., 200
F.3d 795, 803 (Fed. Cir. 1999) (“[O]nly those terms
need be construed that are in controversy, and only
to the extent necessary to resolve the controversy.”).
B.

Obviousness over AbiEzzi and Baumgartner

As explained above, the invention of the ’309
patent, generally, is directed to operating a media
device in a first mode, as a system for accessing a
media source local to the media device, and in a second
mode, as a remote controller system for controlling a
remote media source. Petitioner contends that
Baumgartner describes a media device that accesses
a local media source (media stored on an internal
hard-drive) and that AbiEzzi describes a media device
that remotely controls a remote media source (an
external DVD jukebox). Pet. 8–9. Thus, Petitioner
contends that Baumgartner describes a device that
operates in a first mode and that AbiEzzi describes a
device that operates in a second mode. Petitioner
argues that the prior art includes examples of
combining the functionalities of two media devices
into one device (e.g., a digital video recorder combined
with a DVD player/recorder or a set-top box with both
digital storage and a VCR), and that, likewise, a
skilled artisan would have combined the functionalities

App.11a
of Baumgartner’s and AbiEzzi’s devices into one device.
Id. at 10–11.
A claim is unpatentable under 35 U.S.C. § 103(a)
if the differences between the claimed subject matter
and the prior art are “such that the subject matter as
a whole would have been obvious at the time the
invention was made to a person having ordinary skill
in the art to which said subject matter pertains.” We
resolve the question of obviousness on the basis of
underlying factual determinations, including: (1) the
scope and content of the prior art; (2) any differences
between the claimed subject matter and the prior art;
(3) the level of skill in the art; and (4) objective evidence of nonobviousness, i.e., secondary considerations.
See Graham v. John Deere Co., 383 U.S. 1, 17–18
(1966).
In an obviousness analysis, some reason must be
shown as to why a person of ordinary skill would have
combined or modified the prior art to achieve the
patented invention. See Innogenetics, N.V. v. Abbott
Labs., 512 F.3d 1363, 1374 (Fed. Cir. 2008). A reason
to combine or modify the prior art may be found
explicitly or implicitly in market forces; design
incentives; the “interrelated teachings of multiple
patents”; “any need or problem known in the field of
endeavor at the time of invention and addressed by
the patent”; and the background knowledge, creativity,
and common sense of the person of ordinary skill.
Perfect Web Techs., Inc. v. InfoUSA, Inc., 587 F.3d
1324, 1328–29 (Fed. Cir. 2009) (quoting KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 418–21 (2007)).

App.12a
1. Level of Ordinary Skill in the Art
Neither party proposes a level of skill of a person
of ordinary skill in the art. Nevertheless, we find that
the level of ordinary skill is reflected by the prior art
of record. See Okajima v. Bourdeau, 261 F.3d 1350,
1355 (Fed. Cir. 2001); In re GPAC Inc., 57 F.3d 1573,
1579 (Fed. Cir. 1995); In re Oelrich, 579 F.2d 86, 91
(CCPA 1978).
2. Scope and Content of the Prior Art
a. Overview of AbiEzzi
AbiEzzi discloses a virtual DVD jukebox. Ex. 1005
¶ 6. AbiEzzi describes a “system and method for
integrating home entertainment with home networking
functionality that enables a jukebox (e.g., a DVD
jukebox or the like) to serve as a centralized storage
of multiple video/audio titles that can be selected
from and played on televisions or other display devices
at different locations in the home.” Id. Figure 2, reproduced below, illustrates an example:

App.13a

FIG. 2
Figure 2 is a schematic diagram of a home entertainment system integrated with a home network and
a video jukebox. Id. ¶ 8.
In home network 70, media server 100 is connected
to various components via IP-based Ethernet network
104. Id. ¶ 19. For example, media server 100 is coupled
to television 82, with media client 86, via network
104, and to television 84, with media client 88, via
network 104 and wireless access point (WAP) 96, which
serves as a base station for a wireless local area
network (LAN). Id.
Media server 100 is connected to jukebox 80, which,
for example, can store and play back a plurality of
DVDs 68. Id. ¶¶ 18, 20. Media server 100 can be
implemented as a personal computer in an equipment

App.14a
room or a dedicated microprocessor-based device such
as a set-top box, for example. Id. ¶ 20. “The media
server 100 functions as a proxy for the jukebox 80 to
allow the jukebox to be discovered and controlled by
other devices connected to the home network 70, such
as the media clients 86, 88 of the televisions 82, 84.”
Id. ¶ 22. Media server 100 can use information from
the DVDs, as well as information downloaded from the
Internet, to build title directory 116, which can be
sent to media client 86 for display on television 82 to
allow a user to navigate the titles interactively and
select titles for playback. Id. “When the user selects a
title for viewing, the media server 100 controls the
DVD jukebox 80 to read the contents on the DVD for
that title, and transmits the contents to the media
client of the display device. . . . ” Id. ¶ 23.
According to AbiEzzi:
The media server 100 enables integration of
the home entertainment components/devices with the home network 70 to provide
enhanced home automation experience. In
particular, in accordance with the invention,
the media server 100 enables the contents of
the jukebox 80 to be selected and viewed on
display devices at different locations in the
house. . . .

Id. ¶ 21.
b. Overview of Baumgartner
Baumgartner discloses systems and methods for
“providing an interactive television system for recording
television programming.” Ex. 1007, Abstract. The
interactive television system may include components

App.15a
for providing personal video recorder (“PVR”)
functionality, including a PVR device. Id. Figure 3,
reproduced below, illustrates an example:
300

FIG. 3
Figure 3 is a block diagram of user television equipment 300. Id. at 3:6–7.
User television equipment 300 includes set-top box
302, recording device 304, display device 306, and
remote control 312. Id. at 5:54–57. Set-top box 302
can be coupled to recording device 304, or recording
device 304 can be integrated with set-top box 302 in
a single device. Id. at 6:1–3, 6:19– 20. Recording
device 304 can include PVR 308. Id. at 6:20. To
record a program, a user tunes set-top box 302 to a
channel and control signals are sent to recording
device 304 to record a program on that channel. Id.

App.16a
at 6:22–26. To play a stored program, set-top box 302
receives a user request to play a program from PVR
308. Set-top box 302 communicates with PVR 308 to
obtain the program and sends audio/video signals to
display device 306, which can be a television. Id. at
6:34, 6:37–48.
A user can interact with the components in user
television equipment 300 and with an interactive television program guide (IPG) using remote control 312.
Id. at 6:52–54. An illustrative recordings screen provided by an IPG is shown in Figure 27, reproduced
below:

FIG. 27
Figure 27 is a picture of a display screen for accessing
and viewing recorded programs, and is accessed by a
user, with a remote control, via a menu screen. Id. at
3:42–44, 22:37–41. Recordings screen 2700 includes
list of recorded programs 2704, television ratings
2106, and scroll indicators 2708, 2710 for interacting

App.17a
with screen 2700. Id. at 22:50–60. When the user selects
a recording to view, the IPG sends a request to the PVR
to present the requested recording and, in response,
the PVR generates a presentation of the recording on
the display screen. Id. at 23:23–34.
3. Alleged Obviousness of Claims 1–14 over AbiEzzi and Baumgartner
a. Claims 1 and 9
Claim 1 recites “[a] method of using a media device
operable in first and second modes.” Petitioner refers
to Baumgartner as teaching the claimed “first mode”
and AbiEzzi as teaching the claimed “second mode.”
Pet. 11–13.
Claim 1 further recites “the first mode comprising
operation as a system for accessing a media source
co-housed with or directly connected to said media
device, the source configured to stream media files or
media streams for output by said media device.” For
this limitation, Petitioner argues that Baumgartner’s
PVR is a “media device” that can record programs on
hard-drives and play back the recorded programs at
a later time. Id. at 11–12 (citing Ex. 1007, 1:24–27,
6:1–3). Baumgartner explains that the PVR can include
“storage devices” such as “hard-drives or any other
suitable magnetic storage devices, optical storage
devices, or any other suitable storage devices” cohoused within the PVR. Ex. 1007, 13:19–38; Fig. 8.
Petitioner identifies these storage devices as a “media
source.” Pet. 11–12. Baumgartner further explains
that when recorded content is selected for viewing,
the content is streamed from storage for output by
the PVR on the display screen. Ex. 1007, 1:24–37,

App.18a
22:50–60, 23:32–34; Mercer Decl. ¶ 35. We find that
Baumgartner’s description of storing programs on a
hard-drive within a PVR and streaming content from
the PVR to a display screen teaches a “source configured
to stream media files or media streams for output by
said media device,” as recited in claim 1, and that
Baumgartner’s description of the hard-drive as being
within the PVR teaches “a media source co-housed with
or directly connected to said media device.”
Claim 1 also recites “the second mode comprising
operation of the media device as a remote controller
system for controlling over a network a media source
remote from the media device.” For this limitation,
Petitioner refers to description in AbiEzzi that a
“media client” (which Petitioner asserts is the claimed
“media device”) allows a user to “navigate . . . titles”
loaded in a DVD jukebox accessible by the media client
over a “home network.” Pet. 12–13 (quoting Ex. 1005,
Abstract, ¶ 24). AbiEzzi explains that its DVD jukebox
is integrated with the home network and serves as a
“centralized storage of multiple video/audio titles
that can be selected and played on display devices,
such as televisions at different locations in the home.”
Ex. 1005, Abstract. AbiEzzi explains that “media server
100 functions as a proxy for the jukebox 80 to allow
the jukebox to be discovered and controlled by other
devices connected to the home network 70, such as
the media clients 86, 88 of the televisions 82, 84.” Id.
¶ 22. We agree with Petitioner (Pet. 12–13) that
AbiEzzi’s media clients 86, 88 are “media devices,” as
recited in claim 1, and that the combination of AbiEzzi’s
media server 100 and jukebox 80 constitutes “a media
source remote from the media device.” Moreover,
because AbiEzzi describes using media clients 86, 88

App.19a
to navigate titles in jukebox 80 over network 104, we
find that media clients 86, 88 operate as remote
controllers for controlling jukebox 80, and that AbiEzzi
teaches “controlling over a network a media source
remote from the media device,” as recited in claim 1.
With respect to the first mode, claim 1 recites
operating the media device in the first mode,
wherein when operated in the first mode,
the media device performs the operations of
displaying user-selectable media metadata
on a display of the media device . . . receiving
from a user a selection of media metadata
. . . and outputting the selected media file or
media stream.
We find that this limitation is taught by Baumgartner’s
description of displaying a list of selectable recorded
programs with program titles and ratings on a display
screen (“displaying user-selectable media metadata
on a display of the media device . . . ”); the user selecting a stored program from the list of titles (“receiving
from a user a selection of media metadata . . . ”); and
displaying the program on the display screen (“outputting the selected media file or media stream”). Ex.
1007, 22:50–60, 23:40–41, Fig. 27; Pet. 13–16; Mercer
Decl., ¶¶ 40–41. We also find that the stored programs
are “associated with each displayed media metadata
and being available from the media source for playing
by said media device,” as recited in claim 1. For
example, the program titles shown in Figure 27
correspond to the stored programs and indicate that
the programs can be selected and played. Ex. 1007,
22:50–60.
With respect to the second mode, claim 1

App.20a
recites
operating the media device in a second mode,
wherein when operated in the second mode,
the media device performs operations of
connecting the media device with the media
source, via a network interface, transmitting
a request, using the network interface, for
media metadata from the media device to
the media source, receiving at the media
device, using the network interface, media
metadata from the remote media source,
. . . [and] displaying at least one received
media metadata on a media device display,
wherein the metadata indicates at least one
media file or media stream available on the
media source.
We find that these limitations are taught by AbiEzzi’s
description of a media client (the “media device”) querying the media server connected to the jukebox
(together, the “media source”) for information on
titles stored in the jukebox; the media server receiving
a request to use the jukebox from the media client on
the home network; the media client receiving from
the media server information on titles stored in the
jukebox; and the media client presenting an interactive
user interface, with information on stored titles, on
the display device. Ex. 1005 ¶¶ 22–24, claims 1, 11;
Pet. 16–19. For example, AbiEzzi explains that “the
media server sends the title directory 116 and other
user interface data to the media client 86 of the
television for display on the television to allow the
user to interactively navigate the titles and select a
title for playback.” Ex. 1005 ¶ 22.
Claim 1 next recites:

App.21a
the media device performs operations of
...
generating a signal in response to a user selection
of at least one said displayed media metadata,
and the media device sending a corresponding
signal from the network interface to the
media source, wherein the corresponding
signal includes at least one media file or
media stream metadata identifying at least
one media file or media stream available
from the media source that, in turn, responds
to the corresponding signal by accessing the
identified media file or media stream and
once accessed, and
sending the identified media file or media stream
to a media output device separate from the
media device.
Petitioner refers to disclosure from AbiEzzi that
“when the user selects a title for viewing,” “the media
client sends [a] request to the media server, and the
media server controls the DVD jukebox to retrieve
the contents for that title.” Pet. 19–20 (quoting Ex.
1005 ¶ 26). We agree with Petitioner (Pet. 20) that,
because media server 100 responds to the media
client’s request by retrieving the contents of the particular title selected by the user, the request sent by
the media client (the claimed “corresponding signal”)
includes information (the claimed “at least one media
file or media stream metadata”) identifying the particular title (the claimed “media file or media stream”).
Ex. 1005 ¶ 26; Ex. 1003 ¶ 47. Moreover, AbiEzzi
describes that, “[w]hen the user selects a title for
viewing, the media server 100 controls the DVD

App.22a
jukebox 80 to read the contents on the DVD for that
title, and transmits the contents to the media client
of the display device (e.g., a television) being viewed
by the user via the home network.” Ex. 1005 ¶ 23.
We find that AbiEzzi’s display device, such as a
television, is “a media output device separate from
the media device” and that this disclosure from
AbiEzzi teaches “sending the identified media file or
media stream” to the media output device, as recited
in claim 1. See, e.g., id. at Fig. 2 (showing that TV 84
is a media output device that is separate from media
client 88 (media device)). Moreover, as Petitioner
points out (Pet. 21), AbiEzzi also describes retrieving
multi-channel audio from DVDs and sending it to an
audio playback system separate from the media
server. Ex. 1005 ¶ 18. This is another example of
“sending the identified media file or media stream to
a media output device separate from the media
device,” as recited in claim 1.
In sum, we find that AbiEzzi and Baumgartner
teach each limitation of claim 1. We note that, although
Patent Owner disputes whether a skilled artisan would
have combined these references, Patent Owner does
not challenge Petitioner’s contentions that the two
references teach each individual limitation of claim 1.
We address Petitioner’s proposed reasons to combine
the references, and Patent Owner’s response thereto,
below.
Independent claim 9 is an apparatus claim directed
to a “media device operable in first and second modes”
and recites a network interface, a memory configured
to store program instructions, a display unit, and a
processor unit adapted to execute the stored instructions to cause the media device to operate in the first

App.23a
mode or the second mode. The operation in the first
or second modes is recited substantially the same as
the steps of method claim 1.
Petitioner contends that AbiEzzi’s television is
“a display unit arranged to display a user interface
having a number of user selectable items,” as recited
in claim 9. Pet. 25–26. We agree with Petitioner and
note, in particular, that AbiEzzi describes that “the
media server sends the title directory 116 and other
user interface data to the media client 86 of the
television for display on the television to allow the
user to interactively navigate the titles and select a
title for playback.” Ex. 1005 ¶ 22. As to “a processor
unit adapted to execute computer instructions stored
in the memory and causing the media device to operate
in said first mode or said second mode,” as recited in
claim 9, Petitioner cites to AbiEzzi’s description of
executable instructions and program modules being
executed by a personal computer or other microprocessor-based or programmable consumer electronics. Pet. 26 (citing Ex. 1005 ¶ 11). As to the remainder
of claim 9, the functional limitations that correspond
to the method steps of claim 1, Petitioner cites to the
same teachings discussed above for claim 1. Pet. 26–30.
Patent Owner does not challenge that AbiEzzi and
Baumgartner teach the limitations of claim 9 that
overlap with those of claim 1. Nevertheless, Patent
Owner contends that the combination does not teach
“a processor unit adapted to execute computer instructions stored in the memory and causing the
media device to operate in said first mode or said
second mode,” as recited in claim 9. PO Resp. 10–13.
Specifically, Patent Owner argues that the Petition
“fails to allege that Baumgartner discloses a processor

App.24a
unit at all” and “fails to establish by a preponderance
of the evidence that the identified processor from
AbiEzzi is enabled to perform the operations required
for the first mode” of claim 9. Id. at 12. According to
Patent Owner, “[t]here is no evidence that the mere
existence of a processor would have been sufficient to
switch between modes in the alleged configuration
proposed by the Petitioner’s Expert’s Declaration,
some further hardware or mechanical requirements
could be implicated.” Id.
In its Reply, at 4, Petitioner reiterates its argument from the Petition that it would have been obvious:
to combine the devices of AbiEzzi and Baumgartner to produce a unified device that is i)
operable in a first mode allowing a user to
select locally-stored video content for playback
on a connected display device (as described
in Baumgartner); and ii) operable in a
second mode to allow the user to select video
content stored on a remote DVD jukebox for
playback on the connected display device
(as described in AbiEzzi).
Pet. 9. Petitioner notes (Reply 5) that its citations to
Baumgartner for the first mode functionality of claim
1 describe the PVR as implemented using processor
812. Pet. 11 (citing Ex. 1007, 13:19–38, Fig. 8). As to
Patent Owner’s argument that a processor would not
have been sufficient to switch between the claimed
modes and that “some further hardware or mechanical
requirements could be implicated” (PO Resp. 12),
Petitioner argues that Patent Owner improperly reads
unrecited limitations into claim 9, contrary to the
’309 patent’s broad description of a processor that

App.25a
“can be implemented in any convenient way.” Reply
7–8 (quoting Ex. 1001, 7:22– 30).
We agree with Petitioner. We understand Petitioner’s position to be that a skilled artisan would
have combined the functionalities of AbiEzzi and
Baumgartner into a single device and that the two
modes of claim 9 would have been implemented by
executing programmable instructions using a single
processor. Pet. 9, 26; Reply 4. We find that AbiEzzi
teaches a general-purpose computer processor capable
of executing such instructions. Ex. 1005 ¶ 11. We
disagree with Patent Owner that claim 9 requires
unrecited additional hardware or mechanical requirements to switch between modes. Patent Owner does
not cite to the specification of the ’309 patent or provide expert testimony in support of this argument. We
agree with Petitioner that AbiEzzi describes its processor in approximately the same level of detail as
the ’309 patent describes its processor. Compare Ex.
1001, 7:22–30, with Ex. 1005 ¶ 11.
In sum, we find that AbiEzzi and Baumgartner
teach each limitation of claim 9. We note that Patent
Owner does not dispute that the two references teach
each individual limitation of claim 9 other than the
“processor unit” limitation discussed above.
b. Claims 2–5, 8, and 10–13
Claim 2 depends from claim 1 and adds “wherein
the media device sends the selected metadata to the
remote media source using a wireless network
interface.” Claim 10 depends from claim 9 and adds a
substantially similar limitation. We find that AbiEzzi
teaches these limitations through its description of
media clients communicating with media server 100

App.26a
over network 104 and wireless access point 96. Ex.
1005 ¶ 26. We note that Figure 2 of AbiEzzi (reproduced above), shows media client 88 as communicating wirelessly. Thus, we agree with Petitioner
that media server 100 and media client 88
communicate wirelessly via wireless access point 96.
Pet. 22.
Claim 3 depends from claim 1 and adds “wherein
the media output device is remote from the remote
media server.” Claim 11 depends from claim 10 and
adds “wherein the media output device is remote from
the media source.” We find that AbiEzzi teaches these
limitations through its depiction of media client 88
and TV screen 84 as separated from media server 100
by network 104 and wireless access point 96. See Ex.
1005 ¶ 26.
Claim 4 depends from claim 3 and adds “wherein
the sending of the selected media file or media stream
to the media output device occurs at least partly via
a wireless link.” Claim 12 depends from claim 9 and
adds a substantially similar limitation. We find that
AbiEzzi teaches these limitations through its description and depiction of media server 100 communicating
with media client 88 and television 84 via wireless
access point 96. See id.
Claim 5 depends from claim 1 and adds “wherein
the metadata includes at least one of title, album,
artist, playlist, stream name, stream characteristic,
and content location.” Claim 13 depends from claim 9
and adds a substantially similar limitation. We find
that AbiEzzi teaches these limitations through its
example of a media client “retriev[ing] the title
directory compiled by the media server” and “receiving
from the media server the information on titles stored

App.27a
in the jukebox.” Ex. 1005 ¶ 26, claim 11 (emphases
added).
Claim 8 depends from claim 1 and adds “wherein
when the media device is operated in the second mode,
the media source is connected via a local network.”
We find that AbiEzzi teaches this limitation through
its description of media server 100 communicating
with media client 88 via wireless access point 96,
which AbiEzzi states can function as a base station
for a LAN. Ex. 1005 ¶ 19.
We note that Patent Owner does not present
separate arguments for claims 2–5, 8, and 10–13.
c. Claims 6, 7, and 14
Claim 6 depends from claim 1 and adds “wherein
the remote media source is a server.” Claim 14 depends
from claim 9 and adds “wherein the media source is a
server.”
Petitioner contends that AbiEzzi’s media server
100 and jukebox 80, together, constitute a “media
source,” as recited in claim 1. Pet. 17 (annotated AbiEzzi Figure 2 grouping media server 100 and jukebox
80 as “media source remote from the media device.”).
Petitioner cites its analysis of claim 1 to show that
AbiEzzi’s media source includes a media server, per
claim 6. Id. at 25. In our Institution Decision, we
explained that, contrary to Patent Owner’s argument
that Petitioner’s position is ambiguous, we understood
Petitioner to contend that the portion of AbiEzzi’s
system corresponding to a media source includes both
media server 100 and jukebox 80. Dec. 12–13, 13 n.1.
Petitioner contends that AbiEzzi teaches the corres-

App.28a
ponding limitation of claim 14 for the same reasons
as claim 6. Pet. 30.
Patent Owner responds by arguing that AbiEzzi’s
media server 100 and jukebox 80 are actually separate
entities and should not be grouped together as a media
source. PO Resp. 13–17. Specifically, Patent Owner
argues, “the Petition cites to portions of AbiEzzi that
consistently treat the server and the media source as
distinct, exclusive elements,” and only jukebox 80,
where the content actually is stored, should be considered a media source. Id. at 13–14; see also id. at 14
(“Examples cited by the Petition indicating that the
media source and the server are separate entities,
include [Ex. 1005 ¶ 22, and claims 1, 11, cited at Pet.
12, 17].”), 14 (“[T]he Petition cites to and quotes
portions of AbiEzzi [Ex. 1005 ¶ 24, cited at Pet. 8]
that the media content is unquestionably stored in
the DVD jukebox (i.e., the media source).”), 14 (“[T]he
cited portions [of Ex. 1005 ¶ 24, cited at Pet. 8]
illustrate that the server is a separate entity that is
connected to the media source, not the same entity as
the media source.”); 15 (In Figure 2 of AbiEzzi, “the
Media Server (100) is its own distinct element. The
Jukebox (80) is connected to but not the same as the
media server.”). Patent Owner argues that Petitioner’s
expert witness, Dr. Mercer, admitted that media server
100 is described as an entity separate from jukebox
80 in AbiEzzi. Id. at 16 (citing Ex. 2007, 73:7–10,
77:1–5). Patent Owner argues that “AbiEzzi does not
identify a media source that is a server; instead, it
identifies a media source connected to a server.” Id.
In reply, Petitioner argues that nothing in the
claims of the ’309 patent require a media source to be
limited to a single component or entity that stores

App.29a
the media. Reply 9. Instead, Petitioner argues, the specification of the ’309 patent describes a media source
configured similar to AbiEzzi’s media server and
jukebox. Reply 9–10. Indeed, the ’309 patent, in
describing a music source, gives as an example a
personal computer or similar device with an internal
or external DVD player that, together, act as a server.
Ex. 1001, 8:11–24 (“When a network adapter is used
(wired or wireless), the system may control a remote
device (personal computer, etc.) which can then act
as a server of music and other files to the base unit
(e.g., from Apple Computer’s iTunes service or the
like) or as a streaming audio source. . . . The remote
device may serve up music content from various
sources, such as a hard (magnetic) disk drive, an
optical medium (e.g., CD or DVD), or electronic memory
(e.g., RAM), any of which may be internal or external
to the processor which acts as a server.”).
Petitioner further contends that AbiEzzi’s media
server 100 by itself, is incomplete and not a server
because it does not include storage for the media it
serves up. Reply 10. Rather, Petitioner argues, AbiEzzi’s
media server 100 and DVD jukebox 80, collectively
function as the server described in the examples of
the ’309 patent. Id. We agree that AbiEzzi describes
the relationship of media server 100 and jukebox 80
similarly to that of the examples of media sources in
the ’309 patent. Ex. 1005 ¶¶ 22 (“The media server
100 functions as a proxy for the jukebox 80 to allow
the jukebox to be discovered and controlled by other
devices connected to the home network 70, such as
the media clients 86, 88 of the televisions 82, 84. . . . ”),
23 (“When the user selects a title for viewing, the
media server 100 controls the DVD jukebox 80 to read

App.30a
the contents on the DVD for that title, and transmits
the contents to the media client of the display device.
. . . ”).
In response to Patent Owner’s cross-examination,
Dr. Mercer confirmed that this is how a skilled artisan
would have understood AbiEzzi:
So while this [Ex. 1003 ¶ 42, citing Ex.
1005 ¶ 22] is not teaching specifically that
the jukebox is a server, it really is teaching
that the combination of the media server
100 and the jukebox 80 perform the function
of a server together because that’s what
causes access to the material on the jukebox.
And I’m not sure that one of skill in the
art would get very—very tied up about
whether these exact words are used to
describe the jukebox as a—as a media server.
I think the idea would be that the media
server and the jukebox form [what] provides—it’s a structure, and it provides a
function. And the function is the function of
sending the material on the jukebox, making
it accessible to other media clients in the
system.
Ex. 2007, 78:4–18. This testimony, elicited by Patent
Owner’s questioning, is consistent with the manner
in which the ’309 patent describes servers of media
content and, thus, is credible.
Patent Owner argues that “under the doctrine of
claim differentiation, because claims 6 and 14
affirmatively claim a media source that ‘is a server,’ the
scope of claims 1 and 9, respectively, includes media
sources that are not servers.” PO Resp. 16. According

App.31a
to Patent Owner, “[i]f claims 6 and 14 are interpreted
such that the media source is not required to be a
server, then the resulting absence of difference in
meaning and scope would render the claims superfluous because claims 1 and 9 already cover embodiments
where the media source is not required to be a
server.” Id. at 17. Patent Owner’s argument is not
persuasive. Claims 6 and 14 do require that the
remote media source is a server. Claims 1 and 9 do
not. Thus, claims 1 and 9 are of different scope than
claims 6 and 14, and claim differentiation is inapplicable. A device that meets the narrower media
server limitation of claims 6 and 14 necessarily also
meets the broader media source limitation of claims
1 and 9. As discussed above, and further below, we
find that AbiEzzi’s media server 100 and jukebox 80
meet both limitations for this reason.
In light of the description in the ’309 patent of
an example media source comprising a personal
computer acting as a server to serve up content from
an external DVD player, along with credible testimony
from Dr. Mercer, we read “wherein the remote media
source is a server” to encompass a remote media source
that includes both a processor to serve up media and
a storage device, external to the processor, storing
the media to be served. Patent Owner offers no
persuasive evidence contradicting our understanding.
As explained in detail above, AbiEzzi’s media server
100 and DVD jukebox 80, collectively, store and serve
up media to devices such as media clients 86, 88.
Thus, we find that AbiEzzi’s media server 100 and
DVD jukebox 80, collectively, teach both the narrower
media server limitations of claims 6 and 14, and the
broader media source limitations of claims 1 and 9.

App.32a
Claim 7 depends from claim 6 and adds “wherein
when the media device is operated in the second mode,
the server is remote from the media device.” We find
that AbiEzzi teaches this limitation through its
depiction of media client 88 and TV screen 84 as
separated from media server 100 by network 104 and
wireless access point 96. We note that Patent Owner
does not present separate arguments for claim 7.
d. Reasons to Combine
Petitioner argues that a skilled artisan would
have modified AbiEzzi’s device operable to access a
DVD jukebox over a network to include the PVR
functionality of Baumgartner “because such a modification amounts to simply combining prior art elements
from the same field, according to known methods to
yield predictable results.” Pet. 9–10 (citing KSR, 550
U.S. at 417). Petitioner further argues that a skilled
artisan would have had reason to make such a modification
in order to eliminate the need to have two
separate devices to perform the functions of
AbiEzzi and Baumgartner, thereby reducing
the amount of equipment a user needs to
configure and maintain, reducing the space
the equipment consumes in/on the user’s
television furniture, facilitating using the
devices with a common remote control, and
enabling one set of connections to the television.

Id. at 10. Similarly, Petitioner argues that a skilled
artisan

App.33a
would also have been motivated to consolidate
the similar video playback functionality of
AbiEzzi and Baumgartner in a single device
to allow the user to navigate a single
interface to access both local recorded
programs and remote DVDs from the jukebox,
thereby producing a more unified and userfriendly viewing experience.

Id. Petitioner relies on the testimony of Dr. Mercer,
who repeats these arguments. Ex. 1003 ¶ 26.

Relying on Dr. Mercer’s testimony, Petitioner
asserts that the prior art generally recognized combination devices with video players for more than one
type of media. Pet. 10–11 (citing Ex. 1003 ¶ 27). Dr.
Mercer testifies that “media devices allowing for
playback of media from both local and remote sources
were known in the art as of the effective filing date of
the ’309 patent,” giving as examples Barton (Ex. 1011,
US 8,577,205 B2) and Klements (Ex. 1009, US
2003/0236906 A1). Ex. 1003 ¶ 27. Petitioner argues
that “combination devices with players for more than
one type of media were also well known.” Pet. 10–11.
Petitioner’s evidence supports this assertion. Barton,
for example, describes “[a] digital video recorder
(DVR) system with an integrated DVD recording
device.” Ex. 1011, Abstract. In another example, Baumgartner describes that its recording device 304 “may
include one or both of PVR 308 and VCR 310.” Ex.
1007, 6:20–22. Petitioner argues that because “AbiEzzi’s
media client provides, at the user’s television, the
functionality of its networked DVD jukebox player,
combining it with Baumgartner’s PVR produces an
analogue to [a] combination DVD/PVR device,” a device

App.34a
Petitioner asserts was well known in the art. Pet. 11
(citing Ex. 1003 ¶ 27; Ex. 1011, Abstract).
Patent Owner responds by arguing that Petitioner’s expert testimony is conclusory and based on
hindsight reasoning.1 PO Resp. 18. Patent Owner
argues that Dr. Mercer provides piecemeal analysis
that does not treat the claims in their totality and
fails to opine on what result the proposed combination
would achieve. Id. at 19.
Patent Owner focuses separately on paragraphs
25, 26, and 27 of the Mercer Declaration. As to paragraph 25, Patent Owner contends that “Petitioner’s
Expert does not address why it would have been
obvious to make these combinations, instead only citing
to the elements in Baumgartner and AbiEzzi that align
with the claimed invention.” Id. at 20. This argument
is not persuasive, as Dr. Mercer provides such
testimony in paragraph 26. For example, Dr. Mercer
opines that a person skilled in the art would have
found it obvious to make such a modification
in order to eliminate the need to have two
separate devices to perform the functions of
AbiEzzi and Baumgartner, thereby reducing
the amount of equipment a user needs to
1 Patent Owner provides several pages of argument in support
of the general position that Dr. Mercer’s testimony “was largely
unsupported by factual citations and was largely verbatim
duplication from the Petition.” PO Resp. 32–38. The only
example Patent Owner discusses specifically is paragraph 26 of
the Mercer Declaration. Id. at 35–36. Although some portions of
Dr. Mercer’s testimony might be conclusory or unsupported by a
stated factual basis, the testimony challenged with specificity
by Patent Owner (paragraph 26) is supported and credible, for
the reasons given below.

App.35a
configure and maintain, reducing the space
the equipment consumes in the user’s television cabinet, facilitating using the devices
with a common remote control, and enabling one set of connections to the television.
Ex. 1003 ¶ 26. These reasons are straightforward,
logical, and have rational underpinning.
Patent Owner further argues that “Paragraph 26
discusses motivation to combine generally, but lacks
any factual support.” PO Resp. 21; see also id. at 21–
22 (“[P]aragraph 26 has no citations to any references,
the ʼ309 patent, or any other document, figures, etc.
. . . [P]aragraph 26 of Petitioner’s Expert’s declaration
is completely unsupported by any evidence or factual
citations of any kind. . . . Further it states that the
results would have been predictable, but not what
the predictable result would have been or why it
would have been predictable given the state of the
art.”). This argument is not persuasive, as Dr. Mercer
provides such testimony in paragraph 27. Ex. 1003
¶ 27 (citing Ex. 1009, Abstract; Ex. 1011, Abstract).
Dr. Mercer’s citation to evidentiary bases for his
opinions adds to the credibility of his testimony on
this point.
As to paragraph 27, Patent Owner argues that it
“has some citations to evidence, but it only discusses
why the alleged results would have been predictable
and not the reasons and motivations to combine the
references in the first place.” PO Resp. 21; see also id.
at 23 (“Petitioner’s Expert fails to state why a general
knowledge of playback devices would have resulted
in a predictable combination, or any probability of
success in the combination. . . . [P]aragraph 27 of the
Declaration only indicates that the combination would

App.36a
achieve predictable results because playback from remote and local sources was ‘known in the art’ with no
citation to how the references would have been
combined or according to what methods.”). Once again,
Dr. Mercer testifies in paragraph 26 as to the reasons
why a skilled artisan would have combined AbiEzzi
and Baumgartner.
In sum, when read together, paragraphs 25, 26,
and 27 of the Mercer Declaration explain how the
references would have been combined, articulate reasons why a skilled artisan would have done so, and
support these opinions with citations to evidence. We
find this testimony credible. Patent Owner’s attacks on
individual paragraphs of the Mercer Declaration
without considering related paragraphs together as a
whole are unpersuasive. We note that Patent Owner
does not offer expert testimony in support of its
position.
On the complete record, we find that a skilled
artisan would have had compelling reasons to combine
AbiEzzi and Baumgartner
to produce a set-top box that is i) operable in
a first mode allowing a user to select locallystored video content for playback on a
connected display device (as described in
Baumgartner); and ii) operable in a second
mode to allow the user to select video
content stored on a remote DVD jukebox for
playback on the connected display device (as
described in
AbiEzzi).
Ex. 1003 ¶ 25. We find that such a combination
would have been predictable and likely to succeed.

App.37a
The reasons a skilled artisan would have combined
the references include eliminating the need to have
two separate devices, reducing the space the equipment
consumes, facilitating the use of multiple functions
with a common remote control, and enabling a single
set of connections to a television. Id. ¶ 26. These
reasons are supported by evidence showing that it
was known to combine the functions of multiple
audio/video playback devices within a single device,
including additional prior art references and expert
testimony that we find credible. Ex. 1011, Abstract;
Ex. 1007, 6:20–22; Ex. 1003 ¶ 27.
4. Objective Indicia of Nonobviousness
In evaluating whether an invention would have
been obvious, “[s]uch secondary considerations as commercial success, long felt but unsolved needs, failure
of others, etc., might be utilized to give light to the
circumstances surrounding the origin of the subject
matter sought to be patented.” Graham, 383 U.S. at
17–18. It is Patent Owner’s burden to introduce evidence supporting such objective indicia, see Novo
Nordisk A/S v. Caraco Pharm. Labs., Ltd., 719 F.3d
1346, 1353 (Fed. Cir. 2013), and Petitioner’s ultimate
burden of persuasion to show the unpatentability of
the challenged claims in light of these objective
indicia, see 35 U.S.C. § 316(e). Objective indicia should
be considered along with all of the other evidence in
making an obviousness determination. See Eurand, Inc.
v. Mylan Pharm. Inc. (In re Cyclobenzaprine Hydrochloride Extended–Release Capsule Patent Litig.),
676 F.3d 1063, 1076–77 (Fed. Cir. 2012) (“It is to be
considered as part of all the evidence, not just when
the decisionmaker remains in doubt after reviewing
the art.”) (quoting Stratoflex, Inc. v. Aeroquip Corp.,

App.38a
713 F.2d 1530, 1538–39 (Fed. Cir. 1983)). According to
the Federal Circuit, “objective considerations of nonobviousness must be considered in every case.” WBIP,
LLC v. Kohler Co., 829 F.3d 1317, 1328 (Fed. Cir. 2016).
Patent Owner raises several alleged objective
indicia of nonobviousness, including commercial
success, industry praise, long-felt need, and copying,
based on its George product, which Patent Owner
argues embodies the ’309 patent. For the reasons
discussed below, none of these objective indicia are
entitled to much weight, and thus, do not outweigh
our finding that the asserted prior art reads on the
challenged claims.
As the Federal Circuit has explained:
For objective indicia evidence to be accorded
substantial weight, we require that a nexus
must exist between the evidence and the
merits of the claimed invention. Where the
offered secondary consideration actually
results from something other than what is
both claimed and novel in the claim, there is
no nexus to the merits of the claimed
invention. . . .
In evaluating whether the requisite nexus
exists, the identified objective indicia must
be directed to what was not known in the
prior
art—including
patents
and
publications— which may well be the novel
combination or arrangement of known individual elements.

Novartis AG v. Torrent Pharm. Ltd., 853 F.3d 1316,
1330–31 (Fed. Cir. 2017) (internal quotation marks
and citations omitted).

App.39a
We recognize that “there is a presumption of nexus
for objective considerations when the patentee shows
that the asserted objective evidence is tied to a specific product and that product ‘is the invention disclosed and claimed in the patent.’” WBIP, 829 F.3d at
1329 (quoting J.T. Eaton & Co. v. Atl. Paste & Glue
Co., 106 F.3d 1563, 1571 (Fed. Cir. 1997)). That is
not the case here. Although Patent Owner argues
that the George product is “embodied in part by Patent
Owner’s [‘309 patent],” and “[t]he features embodied
by the ’309 patent are primarily based on research
and development from the GeorgeTM project,” PO Resp.
1, Patent Owner does not cite to persuasive evidence
to support those assertions. See also id. at 26–27
(stating, without citation, that “[t]he inventions of
the ’309 patent, as embodied in the George system
also received accolades from other sources”). In this
case, Patent Owner’s evidence is not sufficient to find
that the George product is the invention disclosed in
the ’309 patent. Thus, we do not presume a nexus
between Patent Owner’s alleged objective indicia of
nonobviousness and the challenged claims.
a. Commercial success and industry praise
Patent Owner cites to several press releases and
articles purportedly awarding and praising its George
product. PO Resp. 26–28. Patent Owner contends that
“[t]hese sources highlight the commercial success of
the inventions of the ʼ309 patent, as well as how they
[were] praised by others.” Id. at 28.
For example, Patent Owner argues that its George
product won various awards, such as a Best of Show
Award from the editors of Macworld during the 2007
Macworld Expo and Conference and Editor’s Choice

App.40a
Awards from PC Magazine, LapTop, and Mac | Life. PO
Resp. 26–27. In support of this argument, Patent Owner
cites to two of its own press releases (Exs. 2015,
2016) expressing delight at having received these
rewards. The press releases, however, fail to discuss
the criteria for the awards or to explain what features
of the George product contributed to receiving the
awards.
Patent Owner also cites to a Macworld article
reviewing the George product and describing it as
“an impressive package of technology, a great iPod
speaker system, and a very good desktop stereo.” PO
Resp. 27 (quoting Ex. 2008, 6). Patent Owner alleges,
at a high level, that the Macworld article praised
“features of the ’309 patent, such as the two-mode
system accessed with the remote control as a media
device, as part of the value of the George system in
which they were embodied,” and that “[t]he elements
of the ’309 [patent] that were represented in the
George system gave that system ‘a unique and compelling combination of features’ that was critically
praised.” Id. (quoting Ex. 2008, 7). As another example,
Patent Owner cites to a PC Magazine article reviewing
the George product and characterizing it as “super
capable” and “advanced.” Id. (quoting Ex. 2009, 13,
14). Patent Owner notes that the article identified
among its “Pros,” the “[d]etachable remote that controls
a wide variety of functions.” Id. (quoting Ex. 2009,
12).
Petitioner argues in reply that Patent Owner has
failed to provide evidence of what aspects of the challenged claims are embodied by the George system and
whether the praise and awards cited by Patent
Owner were due to a novel claim limitation. Reply

App.41a
22–23. According to Petitioner, Patent Owner’s cited
documents describe only high-level functionality of
the George system. Id. at 23. Petitioner argues that
Patent Owner’s evidence is insufficient to show a
nexus between the claimed invention and the evidence
of praise. Id.
We agree with Petitioner. “Evidence of commercial
success, or other secondary considerations, is only
significant if there is a nexus between the claimed
invention and the commercial success.” Ormco Corp.
v. Align Tech., Inc., 463 F.3d 1299, 1311–12 (Fed.
Cir. 2006). Likewise, “[i]ndustry praise must also be
linked to the patented invention.” Geo. M. Martin Co.
v. All. Mach. Sys. Int’l LLC, 618 F.3d 1294, 1305
(Fed. Cir. 2010).
As Petitioner argues, Patent Owner’s press releases
and cited magazine articles describe features of the
George product at a high level and do not purport to
discuss implementation details of the George system.
Patent Owner notes some features of the George
product that received praise (“great iPod speaker
system, and a very good desktop stereo,” “two-mode
system accessed with remote control as a media
device”). PO Resp. 27. Nevertheless, Patent Owner
does not identify sufficiently how this high-level
praise relates to the aspects of the claims that Patent
Owner contends are novel. As Petitioner points out,
Patent Owner’s Response lacks things like
pin cites to specific disclosure in the evidence,
claim charts or other analysis comparing
the evidence to the claim elements, [an]
analysis of what claim elements are considered novel and how these elements relate to
the alleged secondary considerations, and

App.42a
expert testimony supporting the analysis and
the interpretation of the claims and alleged
secondary considerations evidence.
Reply 25. Without such argument or testimony explaining Patent Owner’s position as to nexus, Patent Owner’s
high-level evidence is not compelling. Cf. In re Affinity
Labs of Tex., LLC, 856 F.3d 883, 901 (Fed. Cir. 2017)
(“Here, the Board correctly recognized that Affinity
provided no explanation or analysis that corroborates
the relationship between the claims of the ‘833 patent
and the market for in-vehicle device integration technology generally.”). Thus, Patent Owner’s evidence of
industry praise is minimally probative of nonobviousness and unpersuasive.
To show commercial success, we would expect
Patent Owner to introduce evidence of a relevant
market and the George product’s performance in that
market. See, e.g., In re Applied Materials, Inc., 692
F.3d 1289, 1300 (Fed. Cir. 2012) (“[T]he more probative
evidence of commercial success relates to whether
the sales represent ‘a substantial quantity in th[e]
market.’”) (quoting In re Huang, 100 F.3d 135, 140
(Fed. Cir. 1996)); Huang, 100 F.3d at 140 (“[E]vidence
related solely to the number of units sold provides a
very weak showing of commercial success, if any.”).
Patent Owner’s press releases and magazine articles
awarding and reviewing the George product do not
purport to discuss the George product’s economic performance in a particular market. Thus, it is entitled to
no weight as evidence of commercial success.
Patent Owner argues that “George was commercially very successful, and was widely distributed
through Petitioner’s stores and other retailers like
Best Buy.” PO Resp. 1. Specifically, Patent Owner

App.43a
argues that “the George system, embodying in part the
challenged claims, was sold at approximately 80
stores owned and operated by the Petitioner, as well
as other retailers such as Best Buy, Sharper Image,
Tweeter, and Amazon.com.” Id. at 25. In support,
Patent Owner cites to allegations from its Complaint
(Ex. 2014 ¶¶ 20–21) filed in the related district court
litigation. The allegations are just that—allegations.
They are not persuasive evidence and do not themselves cite to persuasive evidence.
b. Long-felt but unresolved need, failure of
others in the art, recognition of a problem
solved by the ’309 patent, and copying
Patent Owner contends that, in October 2004, it
met with Petitioner and informed Petitioner of its
remote control system, related to the challenged claims,
that could control Petitioner’s iPod product and that
Petitioner’s representatives were impressed with those
technology plans. PO Resp. 25 (citing Ex. 2014 ¶¶ 11,
15). Patent Owner further contends that, in August
2005, it demonstrated the George product to Petitioner’s
representatives and that, at this meeting, Petitioner’s
representatives asked to keep a prototype to show to
their senior management. Id. at 28–29 (citing Ex.
2014 ¶ 17). Patent Owner argues that it again met
with Petitioner in October 2005 to present its product
strategy to Petitioner and specifically characterized
its technology as “patent pending” at that meeting.
Id. at 29 (citing Ex. 2014 ¶ 18).
After those meetings, Patent Owner argues, Petitioner filed an application for what became the Ko
patent (Ex. 2006, US 7,702,279 B2, filed Dec. 20, 2005).
Id. Patent Owner argues that Ko discloses “substan-

App.44a
tially the same invention as is claimed in claims 1
and 9 of the ’309 patent” and that both Ko and the
’309 patent disclose “a system operable in a first and
second mode, accessing remote and local media sources
in similar fashions.” Id. Patent Owner argues that
“this evidence relates to the long felt but unresolved
needs met by the ’309 patent, the failure of others in
the art, recognition of a problem solved by the ’309
patent, and copying of the ’309 patent by others.” Id.
Patent Owner argues that “[i]n Ko, Petitioner
described a long-felt need for a system and method
like that embodied in the ’309 patent.” Id. at 31. Specifically, Patent Owner argues that Ko’s Background
section discusses multimedia playback systems available prior to the ’309 patent and notes problems with
those systems, such as performance, fidelity, and
usability. Id. at 29 (citing Ex. 2006, 1:30–31). Patent
Owner argues that Ko’s disclosure indicates that
Petitioner was aware, at the time of the invention of
the ’309 patent, of problems with those existing
systems, including that “listeners were forced to make
physical contact with existing players” as well as
“equipment requirements and the associated high
costs.” Id. at 30 (citing Ex. 2006, 1:53–58, 2:3–5).
Patent Owner further argues that, through Ko, Petitioner acknowledged a need in the art for a system
that leverages existing devices, such as the iPod, to
provide remote access and control that otherwise
would require specialized equipment. Id. (citing Ex.
2006, 2:9–13).
Patent Owner’s evidence is not particularly probative of long-felt but unresolved need, failure of others
in the art, or recognition of a problem solved by the
ʼ309 patent, and is therefore entitled to little or no

App.45a
weight. For example, Patent Owner’s evidence that it
met with Petitioner to demonstrate its ideas and
product, and that Petitioner was impressed by those
meetings, consists of allegations from Patent Owner’s
Complaint (Ex. 2014) filed in the related district
court litigation. As explained above, such allegations
are not persuasive evidence, do not themselves cite to
persuasive evidence, and are entitled to no weight.
As to the statements regarding the state of the art in
Ko’s Background section, we find them too general to
evidence a long-felt need for the invention claimed in
the ’309 patent or failure of others to meet that
need. Likewise, Patent Owner’s conclusory statements
that Ko recognized that, in the prior art, listeners
were forced to make physical contact with players
and providing remote control for devices such as the
iPod would have required specialized equipment are
not persuasive evidence of a recognized need for the
invention of the ’309 patent or that others failed to
meet that need.
As to copying, the Federal Circuit has stated
that it “requires the replication of a specific product.
This may be demonstrated either through internal
documents; direct evidence such as disassembling a
patented prototype, photographing its features, and
using the photograph as a blueprint to build a virtually
identical replica; or access to, and substantial similarity
to, the patented product (as opposed to the patent).”
Iron Grip Barbell Co. v. USA Sports, Inc., 392 F.3d
1317, 1325 (Fed. Cir. 2004) (internal citations omitted).
To the extent that Patent Owner argues that Petitioner
gained access to its patented technology via the
meetings alleged in Patent Owner’s district court
Complaint (Ex. 2014), Patent Owner has not supported

App.46a
those allegations with evidence. Moreover, as explained
above, Patent Owner has not shown a nexus between
the technology of the George product and the invention
of the ’309 patent. Similarly, to the extent Patent
Owner argues that the Ko patent evidences replication
of the invention of the ’309 patent, Patent Owner
does not analyze the disclosure of the Ko patent (outside of its Background section) or provide any other
persuasive evidence that Ko describes the ’309 patent’s
invention. Patent Owner confirmed at the oral argument that it did not provide any mapping of Ko to the
claims of the ’309 patent. Tr. 60:12–61:5.
In sum, Patent Owner’s cited evidence of long-felt
but unresolved need, failure of others in the art,
recognition of a problem solved by the ʼ309 patent,
and copying is weak at best and entitled to little or
no weight.
5. Conclusion of Obviousness
As explained above, AbiEzzi and Baumgartner
teach each limitation of claims 1–14. Petitioner has
introduced persuasive evidence that a skilled artisan
would have had reasons to combine AbiEzzi and Baumgartner to arrive at these claims. We have weighed
Petitioner’s evidence and the objective indicia of nonobviousness presented by Patent Owner. For the
reasons given above, we do not accord much weight to
Patent Owner’s objective evidence of nonobviousness.
In sum, upon consideration of all the evidence,
including the evidence in the Petition and Patent
Owner’s Response, including objective indicia of nonobviousness, we conclude that Petitioner has proved by
a preponderance of the evidence that claims 1–14

App.47a
would have been obvious over AbiEzzi and Baumgartner.
III. PETITIONER’S MOTION TO EXCLUDE
Petitioner moves to exclude several exhibits Patent
Owner relies upon as objective indicia of nonobviousness. Paper 23. Specifically, Petitioner objects to Exhibit
2004 as hearsay and lacking authentication (id. at 1–
4) and Exhibits 2008, 2009, and 2014–16 as hearsay
(id. at 5–15).
We exercise our discretion and fully consider each
of these exhibits. Accordingly, we overrule Petitioner’s objections to those exhibits and deny the Motion
to Exclude. As explained in detail above, however,
those exhibits, even when fully considered, are insufficient objective indicia of nonobviousness to overcome
Petitioner’s strong prima facie case of obviousness.
IV. CONCLUSION
Petitioner has demonstrated, by a preponderance
of the evidence, that claims 1–14 are unpatentable
over AbiEzzi and Baumgartner.

App.48a
V. ORDER
For the reasons given, it is:
ORDERED, based on a preponderance of the evidence, that claims 1–14 are unpatentable;
FURTHER ORDERD that Petitioner’s Motion to
Exclude (Paper 23) is DENIED; and
FURTHER ORDERED, because this is a final
written decision, the parties to this proceeding seeking
judicial review of our Decision must comply with the
notice and service requirements of 37 C.F.R. § 90.2.

